HHS/OIG-Audit--"Audit of Administrative Costs - Part A and Part B of the Medicare Program - Blue Cross Blue Shield of Texas, (A-06-99-00006)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs - Part A and Part B of the Medicare Program
- Blue Cross Blue Shield of Texas," (A-06-99-00006)
November 18, 1999
Complete
Text of Report is available in PDF format (2.54 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit, performed under contract with the OIG by the certified public accounting
firm, O'Neal Saul, L.L.C., points out that Blue Cross Blue Shield of Texas (BCBST)
charged unallowable administrative costs to Medicare totaling approximately $1.6
million over the 4-year period ending September 30, 1998. The unallowable costs
consisted of unallowable merger and lobbying costs ($726,186), unallowable executive
compensation that exceeded the Employment Cost Index ($626,981), non-Medicare compensation
and fringe benefits charged to Medicare ($103,044), duplicate charges and unallowable
dues ($90,793), and amounts due but not credited to Medicare ($68,059). In addition
to procedural improvements, the auditors recommended financial adjustments totaling
$1.6 million.